               MOTIVATION, EDUCATION AND TRAINING, INC.
                            NEW CANEY, TX
                                 ***

                               AUDIT REPORT ON
                                INDIRECT COSTS
                      U.S. DEPARTMENT OF LABOR GRANT
                             NUMBER AC-10727-00-55




                         Performance Audit of Indirect Cost for
                    Program Year July 1, 2000 through June 30, 2001




This audit was performed by Harper, Rains, Stokes & Knight, P.A., Certified Public
Accountants, under contract to the Inspector General, and, by acceptance, it becomes a report
of the Office of Inspector General.


                                                  __________________________________
                                                      Assistant Inspector General for Audit


                                                         Report Number: 21-03-014-03-365

                                                                    	

                                                                    	

                                                         Date Issued
                                                TABLE OF CONTENTS


                                                                                                                                     Page

ACRONYMS .............................................................................................................................i

EXECUTIVE SUMMARY ....................................................................................................... 1

INTRODUCTION AND BACKGROUND .............................................................................. 2

OBJECTIVES SCOPE AND METHODOLOGY ....................................................................3

RESULTS OF AUDIT .............................................................................................................. 5

SCHEDULES

                Schedule A - Schedule of Reported Indirect Costs ................................................. 6
                                        ACRONYMS




CFR   -   Code of Federal Regulations

DOL -     U.S. Department of Labor

DMSF -    Division of Migrant and Seasonal Farmworkers

ETA   -   Employment and Training Administration

FSR   -   Financial Status Report

MET -     Motivation, Education and Training, Inc.

NFJP -    National Farmworker Jobs Program

OMB -     Office of Management and Budget

OIG   -   Office of Inspector General

WIA   -   Workforce Investment Act




                                            i
                              EXECUTIVE SUMMARY



The U.S. Department of Labor (DOL), Office of Inspector General (OIG), contracted with
Harper, Rains, Stokes & Knight P.A. to perform an audit of the Workforce Investment Act
National Farmworker Jobs Program (NFJP) to determine whether the program was operating in
accordance with applicable regulations. DOL provides 53 grants to states and non-profit
organizations to operate the program within 47 states and Puerto Rico. We selected a statistical
sample of 9 grantees for review and tested the direct and indirect costs claimed for
reimbursement by these grantees to determine if the costs claimed were reasonable, allowable
and allocable under the cost principles set forth in OMB Circular A-122, or OMB Circular A-87,
as applicable, and grant guidelines, and performance reported to determine whether it was
accurate and properly supported. The NFJP was audited for program year 2000 (July 1, 2000
through June 30, 2001).

As a part of this audit, we performed an audit of the indirect cost rate proposed and indirect costs
claimed by Motivation Education and Training, Inc. (MET). The primary objectives of our audit
of the indirect costs claimed by MET were to determine if the costs proposed in the indirect cost
pool were reasonable, allowable and allocable under the cost principles set forth in OMB
Circular A-122 and to determine if the direct cost base used and indirect cost rate proposed by
MET were those that most equitably distributed indirect costs among cost objectives.

Our audit found that the base used by MET resulted in an equitable allocation of the costs
included in the indirect cost pool among the different programs administered by MET
Additionally, our examination of the specific costs comprising the pool of indirect costs to be
allocated among MET’s programs yielded no instances of costs being questioned due to a lack
of reasonableness, allocability or allowability. The final audited indirect cost rate was not in
excess of the indirect rate proposed by MET in their negotiated indirect cost agreement. The
audit resulted in no findings or questioned costs.




                                             1
                     INTRODUCTION AND BACKGROUND



The Division of Migrant and Seasonal Farmworkers (formerly the Division of Seasonal
Farmworker Programs) within ETA is responsible for administering the National
Farmworker Jobs Program (NFJP). The intent of NFJP, under section 167 of the
Workforce Investment Act, is to strengthen the ability of eligible migrant and seasonal
farmworkers and their families to achieve economic self-sufficiency through job training
and other related services that address their employment related needs. Assistance from
the NFJP is accessed through the NFJP grantee partners and local One-Stop Centers.

MET, a 501 (c)(3) private non-profit organization, was incorporated in 1967 for the
purpose of providing academic and vocational training to migrant and seasonal
farmworkers and their dependents in order to further develop this target group’s
economic self-sufficiency. Since its inception, MET has extended its focus to include
initiatives that target low-income and disadvantaged populations within their service area
which includes operations in Louisiana, Minnesota, North Dakota and Texas. In Texas,
MET operates an administrative office in New Caney, with satellite offices in
Brownsville, Brownwood, Corpus Christi, Crystal City, Eagle Pass, Edinburg, El Paso,
Laredo, Plainview, San Antonio, Sinton and Weslaco. From these offices, MET provides
core, intensive and training services to eligible migrant and seasonal farmworkers and
their families.

In addition to NFJP, MET administers other programs in each of the four states including
Head Start and several other housing and rural development programs. The direct costs
of the operation and administration of the programs administered by MET are incurred at
the state level. Those administrative costs that are not identifiable with a specific cost
objective or program but are, nevertheless, required for the programs’ operations are
incurred at the corporate headquarters of MET in New Caney, Texas. These costs are
recovered through the application of a provisional indirect cost rate to a direct cost base
that distributes the indirect cost pool among cost objectives. The aforementioned rate
proposed by MET is based on historical data relating to indirect costs and is negotiated
periodically by MET with DOL’s Office of Cost Determination.




                                             2
              OBJECTIVES, SCOPE, AND METHODOLOGY


The primary objectives of our audit of the indirect costs claimed by MET were to
determine if the costs proposed in the indirect cost pool were reasonable, allowable and
allocable under the cost principles set forth in OMB Circular A-122 and to determine if
the direct cost base used and indirect cost rate proposed by MET were those that most
equitably distributed indirect costs among cost objectives.

Our audit was performed in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. Our audit included such tests of the
accounting records and other accounting procedures, as we considered necessary in the
circumstances.

Our audit was performed using the criteria we considered relevant. These criteria
included those established by the Federal Government in: OMB Circulars A-110,
Uniform Administrative Requirements for Grants and Agreements with Institutions of
Higher Education, Hospitals and Non-Profit Organizations, and A-122, Cost Principles
for Non-Profit Organizations; the Workforce Investment Act of 1998 (WIA); 20 CFR Part
669 National Farmworker Jobs Program under Title 1 of the WIA; and 29 CFR Parts 95
and 96, Administrative Requirements and Audits of Federally Funded Grants, Contracts,
and Agreements.

Management Controls

To meet the aforementioned objectives, we reviewed management controls over indirect
costs. Our work on established management controls included obtaining and reviewing
policies and procedures manuals, interviewing key personnel, and reviewing selected
transactions to observe the controls in place. Our testing related to management controls
was focused only on the controls related to our audit objectives of reviewing the indirect
costs and was not intended to form an opinion on the adequacy of management controls,
and we do not render such an opinion. Our testing disclosed no weaknesses in
management controls.

Compliance with Laws & Regulations

In order to determine compliance with the above-mentioned laws and regulations, we
performed detailed tests of transactions within the indirect cost pool. Our detailed tests
of transactions included both analytical review and substantive tests of accounts. Our
testing related to compliance with laws and regulations was focused only on the laws and
regulations relevant to our audit objectives of reviewing the reported cost and
performance data and was not intended to form an opinion on the compliance with laws
and regulations as a whole, and we do not render such an opinion. Our testing disclosed
no instances of non-compliance.




                                             3
We examined the indirect cost pool consisting of supporting costs and the salaries and
fringes for central office positions. This examination included a review of the statements
of revenue and expenditures, general ledgers and the supporting documentation. We used
judgmental sampling techniques and analytical procedures to test individual transactions.
Additionally, our consideration of the indirect cost rate proposed by MET included an
examination of the rate’s application to the direct base used.

The indirect costs claimed by MET are presented on Schedule A.


 Entrance and Exit Conferences

We held an entrance conference on March 4, 2002, during which we met with officials of
MET to discuss the purpose, scope and timing of the audit work to be performed. We
held an exit conference with these same officials on April 12, 2002, to discuss the results
of our audit and to obtain their comments. The audit resulted in no findings or
questioned costs.




                                             4
                             RESULTS OF AUDIT



During the course of our audit, we determined that the base used by MET resulted in an
equitable allocation of the costs included in the indirect cost pool among the different
programs administered by MET. Additionally, our examination of the specific costs
comprising the pool of indirect costs to be allocated among MET’s programs yielded no
instances of costs being questioned due to a lack of reasonableness, allocability or
allowability. The final audited indirect cost rate was not in excess of the indirect rate
proposed by MET in the negotiated indirect cost agreement.

                              Audited Indirect Cost Rate

For the program year ending June 30, 2001, we calculated a final indirect cost rate of
18.61 percent as shown below:

                        Indirect Cost Pool                   $1,078,189

        Direct Cost Base (All Programs)                      $5,792,661

                  Final Indirect Cost Rate                      18.61%


The indirect cost rate proposed in the negotiated indirect cost agreement was 19.84
percent. This rate was applied monthly to the direct cost bases used by MET for each
program. The direct cost base used consisted of the total direct salaries and fringe
benefits of each of MET’s programs. The resulting amount represented the amount
recovered by MET as indirect costs for each program.




                                             5
                                            SCHEDULE A


MOTIVATION EDUCATION AND TRAINING, INC.

       Schedule of Reported Indirect Costs
    For the Program Year Ended June 30, 2001


       Cost Categories           Reported

  Salaries                           $531,171
  Fringe Benefits                     168,858
  Rent                                117,750
  Utilities                            12,795
  Telephone                            33,508
  Insurance                               830
  Other Space Costs                       444
  Contract Services                    74,060
  Equipment                               380
  Leased Equipment                     24,992
  Repairs and Maintenance               3,120
  Consumable Supplies                  50,278
  Janitorial Supplies                      26
  Postage                              11,487
  Bank Charges                         11,253
  Printing/Publications                   958
  Training/Conferences                  1,463
  Local Travel                            578
  Out of Town Travel                   30,179
  Fuel and Maintenance                     30
  Other Cost                            4,029

                         Total     $1,078,189




                           6
